   Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




The Medicare Beneficiary Complaint Process

              A Rusty Safety Valve




                            AUGUST 2001
                           OEI-01-00-00060
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of

Inspector General. It conducts short-term management and program evaluations (called

inspections) that focus on issues of concern to the Department, the Congress, and the public. 

The inspection reports provide findings and recommendations on the efficiency, vulnerability,

and effectiveness of departmental programs. 


OEI's Boston Office prepared this report under the direction of Mark R. Yessian, Ph.D.,

Regional Inspector General. Principal OEI staff included:




BOSTON                                                                        HEADQUARTERS

Joyce M. Greenleaf, Project Leader                                  Bambi Straw, Program Specialist

Chaletta M. Clark, Program Analyst

Steven P. Keenan, Program Analyst





        To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
         Reports are also available on the World Wide Web at our home page address:

                                        http://oig.hhs.gov/oei
                       EXECUTIVE                             SUMMARY

PURPOSE

       To reevaluate the effectiveness of the beneficiary complaint process of the Medicare Peer
       Review Organization program.

BACKGROUND

Complaints as a Means to Oversee Quality of Care

       Complaints can serve as a means of identifying practitioners and providers who pose harm
       and, if necessary, triggering interventions and follow-up. Since 1987, the Medicare
       beneficiary complaint process has been a statutory responsibility of Medicare Peer Review
       Organizations (PROs).

Previous Office of Inspector General Report

       In 1995, the Office of Inspector General issued a report on the PROs’ beneficiary
       complaint process that identified three flaws: (1) Federal confidentiality regulations
       precluded the PROs from responding to complainants in a meaningful way, (2) PROs
       received too few complaints to identify patterns of poor care, and (3) the complaint
       process was lengthy. The Centers for Medicare and Medicaid Services (CMS, formerly
       the Health Care Financing Administration) responded positively to our report. It worked
       on revising the confidentiality regulations, but reports that it has been unable to publish a
       final rule.

This Inquiry

       This inquiry reexamines the PROs’ complaint process. It is based on a mail survey to
       PROs, aggregate data on PRO complaints, site visits to 3 PROs, a review of 82 complaints
       at those 3 PROs, PRO budget data, and stakeholder discussions, among others.

THE SIGNIFICANCE OF THE PROs’ COMPLAINT PROCESS

       Two main reasons underscore why the complaint process is an important safety valve:

       Identifying Instances of Poor Care. On average, the PROs identified quality problems
       in 13 percent of medical record reviews initiated by complaints between August 1997 and
       July 1999. They identified such serious concerns as inappropriate transfer, delay in
       treatment, and missed medications, among others.

       Limits to Other Complaint Processes. Professional licensing boards have historically
       struggled with quality-of-care complaints. The Joint Commission on Accreditation of


  The Medicare Complaint Process: A Rusty Safety Valve   i                               OEI-01-00-00060
       Healthcare Organizations gives complaints limited attention during its surveys. The
       medical malpractice system tends to have long delays and financial costs that work against
       Medicare beneficiaries in malpractice litigation.

FINDINGS

The PROs’ Complaint Process is an Ineffective Safety Valve for
Medicare Beneficiaries. It Has Improved Little Over the Past 5 Years.

       Its accessibility is questionable. We called 10 PROs and repeatedly reached busy
       signals at 2, reached recordings at 2, and were referred to a licensure board by another.
       PROs report that beneficiaries often lack a clear understanding of the complaint process.

       It rarely triggers any intervention beyond a letter for substantiated complaints.
       PROs called for a corrective action in 6 of 66 complaints with confirmed concerns that we
       reviewed. They involved clarifying policies or conducting in-service training.

       It fails to provide a meaningful response to complainants. Current procedures
       requiring physician consent before PROs can share their review results with complainants
       continue to preclude the PROs from responding substantively to complainants.

PROs Face Two Major Obstacles to Achieving a More Effective Beneficiary
Complaint Process.

       CMS’ contracts with PROs treat complaints as a distinctly minor activity. The
       contracts stress quality improvement and payment error reduction.

       The PROs tend to be more oriented toward the medical community than to the
       beneficiary community. This helps them in conducting quality improvement projects but
       can hinder them in developing a more effective beneficiary complaint process.

RECOMMENDATION

CMS should provide Medicare beneficiaries with an effective complaint process
that meets the eight criteria identified in our template.

       In our draft report, we presented a series of recommendations on how CMS could achieve
       an effective complaint process. In this final report, we have revised our recommendations
       and present CMS with two options on how it can achieve this.

Option 1: CMS could fix the complaint process within the existing PRO program.

       Toward that end, CMS must make the beneficiary complaint process a prominent part of
       the PRO program, specify its expectations of an effective process through its contracts,
       consider different contracting approaches, and hold the PROs more accountable for
       providing an effective complaint process.


  The Medicare Complaint Process: A Rusty Safety Valve   ii                           OEI-01-00-00060
Option 2: CMS could establish a complaint process outside of the PRO program.

         This option represents a significant departure from how CMS has handled beneficiary
         complaints to date and would require legislative change. CMS could establish an entirely
         new program or contract mechanism focused on complaints and beneficiary outreach. It
         could develop new mechanisms, such as mediation, for dealing with certain types of
         complaints. Or it could build on existing entities that already conduct similar work, such
         as State survey and certification agencies, State medical licensure boards, and the State
         Health Insurance Partnership Program.
.
Issues for CMS to Consider

         The two options above have advantages and disadvantages for CMS to weigh as it
         considers how to best achieve effective complaint process for beneficiaries. Below we
         highlight those issues we consider as paramount.

         •	 To what extent would establishing a complaint process outside of the PROs isolate the
            PROs from beneficiaries, who are the centerpiece of CMS’ programs?
         •	 To what extent would fixing the complaint process within the PRO program exacerbate
            the tension between the quality improvement and complaint responsibilities of the
            PROs?
         •	 To what extent does each option require legislative and regulatory changes to ensure
            that the complaint process functions with the appropriate authority and scope?
         • What are the resource implications of each option?


COMMENTS

         CMS did not provide detailed comments on the recommendations in our draft report. We
         look forward to receiving such comments in response to this final report. We solicited and
         did receive comments from the American Health Quality Association, Citizen Advocacy
         Center, AARP (formerly the American Association of Retired Persons), and the American
         College of Physicians-American Society of Internal Medicine. All commenters agreed
         that an effective complaint process is important for Medicare beneficiaries and that the
         PRO program’s focus on quality improvement is an appropriate one that can co-exist with
         a more effective complaint process. Some offered further recommendations, such as an
         informal complaint resolution process or options for contract changes. We urge CMS to
         consider these comments.




    The Medicare Complaint Process: A Rusty Safety Valve   iii                          OEI-01-00-00060
                          TABLE                         OF             CONTENTS


                                                                                                                                  PAGE


EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


SIGNIFICANCE OF THE PROs’ COMPLAINT PROCESS . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS


         Complaint Process is an Ineffective Safety Valve . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


         Obstacles to a More Effective Complaint Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


COMMENTS on the DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


APPENDICES


         A: Profile of Complaints Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


         B: Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


         C: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49





    The Medicare Complaint Process: A Rusty Safety Valve                                                                   OEI-01-00-00060
                                   INTRODUCTION

PURPOSE

       To reevaluate the effectiveness of the beneficiary complaint process of the Medicare Peer
       Review Organization program.

BACKGROUND

The Complaint Process as a Means to Oversee Quality of Care

       The Centers for Medicare and Medicaid Services (CMS, formerly the Health Care
       Financing Administration) relies on a variety of quality oversight mechanisms to ensure
       that high quality health care and services are delivered to Medicare beneficiaries. One of
       these mechanisms is the complaint process, contractually administered by the Medicare
       Peer Review Organizations (PROs). The PROs’ complaint process provides Medicare
       beneficiaries and their families a forum to have their complaints taken seriously and
       investigated appropriately. It also complements other oversight efforts, ranging from
       surveying hospitals to collecting data on performance measures.

       Providing a complaint process specifically for Medicare beneficiaries has been a
       responsibility of the PROs since 1987, when Congress enacted the Omnibus Budget
       Reconciliation Act of 1986.1 That law mandates that PROs conduct “an appropriate
       review of all written complaints about the quality of services” paid for by Medicare,
       inform the beneficiary or representative of the final disposition of the complaint, and
       provide the practitioner and/or provider concerned with reasonable notice and opportunity
       for discussion.2

Previous Office of Inspector General Report

       In 1995, the Office of Inspector General (OIG) issued a report on the PROs’ beneficiary
       complaint process.3 In that report we found the PROs’ complaint process to be flawed in
       three significant ways: (1) Federal confidentiality regulations precluded the PROs from
       responding to complainants in a meaningful, substantive way, (2) PROs received too few
       complaints to identify patterns of poor care, and (3) the process of investigating and
       responding to complaints was lengthy. Furthermore, we found that Medicare beneficiaries
       were often unaware of their opportunities to complain to PROs about the quality of their
       medical care.

       Based on those findings, we recommended that CMS give the highest priority to requiring
       PROs to respond in a substantive manner to the complainant. We also called for CMS to
       enhance Medicare beneficiaries’ awareness of PROs and the complaint process, and to
       streamline that process.




  The Medicare Complaint Process: A Rusty Safety Valve   1                            OEI-01-00-00060
       CMS responded positively to our report. It assigned a taskforce (part of the Medicare
       Technical Advisory Group) the responsibility to improve the complaint process in light of
       the flaws we identified. That task force included representatives from CMS, the PROs,
       the American Medical Association, AARP (formerly the American Association of Retired
       Persons), the American Hospital Association, and the Citizen Advocacy Center, among
       others. The task met regularly in the period following the 1995 OIG report.

       As a result of recommendations made by the task force, CMS changed its guidelines for
       how long the complaint process should take, dropping the total days allowed from 250 to
       165 days and developing model letters to improve the readability of PRO responses to
       complainants.4 It also conducted three pilot programs to explore new approaches to
       different aspects of the complaint process (mediation to resolve complaints, structured
       implicit review to assess medical records, and various changes in investigating and
       managing complaints).5 However, it has yet to respond to the findings and
       recommendations from the pilot evaluation.

       CMS also began the process of revising the confidentiality regulations, but faced
       considerable hurdles in issuing a rule to allow a substantive response to complainants
       without explicit physician consent. CMS reports that it has been unable to publish the
       rule. It was on hold for over a year and withdrawn as of February 13, 2001, according to
       CMS’ Unified Agenda, the semiannual regulatory agenda published May 14, 2001.6

This Inquiry and Report

       Having released our previous report 5 years ago, we now take a second look at the PROs’
       beneficiary complaint process. This inquiry and report focus on the effectiveness of the
       complaint process and its role as a quality oversight mechanism. We exclude any
       examination of other major aspects of the PROs’ work, such as quality improvement
       projects and the payment error reduction program.

       Our inquiry drew on several data sources. We received national budget data for the fifth
       and sixth contract periods from CMS.7 We collected information from CMS’ data
       contractor on the volume and outcome of beneficiary complaint reviews as well as the
       type of and audience for PRO outreach efforts from August 1997 through July 1999. We
       also conducted a mail survey of the PROs in each State plus the District of Columbia, for
       which we achieved a 100 percent response rate.8 In addition to completing the survey, we
       asked each PRO to provide us with 3 examples of recent responses to beneficiary
       complaints; we received 101 such responses.9 We visited 3 PROs of different sizes in
       States representing 15 percent of the beneficiary population. While on site, we
       interviewed staff involved in complaints and reviewed 82 completed beneficiary
       complaint files, 16 of which involved no confirmed quality-of-care problems and 66 of
       which involved at least 1 confirmed quality-of-care problem. We also interviewed
       stakeholders in CMS, the American Health Quality Association (of which PROs are
       members), AARP, and the Citizen Advocacy Center (which represents public members of
       PRO boards, among others). Finally, we reviewed relevant laws and documents, such as
       the PRO manual and the pilot evaluation, The Medicare Beneficiary Complaint
       Alternative Methods Study, among others.


  The Medicare Complaint Process: A Rusty Safety Valve   2                           OEI-01-00-00060
     We conducted this study in accordance with the Quality Standards for Inspections issued
     by the President’s Council on Integrity and Efficiency.




The Medicare Complaint Process: A Rusty Safety Valve   3                          OEI-01-00-00060
           THE SIGNIFICANCE OF THE
           PROs’ COMPLAINT PROCESS

       In 1995, CMS set forth its vision of the successful PRO in 5 years. CMS envisioned that
       the PROs will “have earned a position of trust in the eyes of plans, providers, and
       practitioners and beneficiaries . . .based on responsive investigation of complaints and
       protection of consumers.”10

       Five years have passed since CMS wrote this vision statement. The PROs’ complaint
       process, mandated by statute, continues to serve as the key instrument for protecting the
       38 million Medicare beneficiaries from practitioners and providers who pose harm. The
       complaint process can act as a means of identifying such practitioners and providers and,
       if necessary, triggering appropriate interventions and follow-up. This corresponds with
       one of the three purposes of the PRO program that CMS defined in its recent contract with
       the PROs: to protect Medicare beneficiaries. 11

       Below we identify two main reasons that underscore why the complaint process is an
       important safety valve in quality oversight.

Identifying Instances of Poor Care

       Complaints can expose serious instances of substandard care. In the 2-year period from
       August 1997 through July 1999, PROs completed 9,099 medical record reviews in
       response to complaints. On average, PROs identified problems in 13 percent of those
       reviews. Our previous inquiry reported similar proportions of confirmed reviews: across
       all PROs, between 10 and 15 percent of reviews initiated by complaints led to at least 1
       confirmed problem.12 Notably, according to the more recent data, 3 PROs confirmed
       problems in as many as 29 percent of records reviewed.

       From our complaint file review, we found several examples of patient risk and harm that
       PROs identified and confirmed as problems through the complaint process. These
       examples represent technical quality concerns, which deal with clinical decisions and
       expertise:

       C	 Inappropriate transfer. During bladder surgery in an ambulatory surgical center, a
          beneficiary suffered complications that were improperly treated. The surgical center
          transferred him by wheelchair to a hospital six blocks away. A PRO physician
          reviewer called this transfer method “repulsive” and “negligent” because the ailing
          beneficiary was wheeled down the street dressed in a hospital gown with his family
          following him.

       C	 Delay in treatment. A beneficiary experienced a sharp decline in health due to a
          delay of treatment for an abdominal aortic aneurism.




  The Medicare Complaint Process: A Rusty Safety Valve   4                           OEI-01-00-00060
       C	 Missed medications. For 6 days after being transferred from a hospital to a skilled
          nursing facility, a beneficiary failed to receive his medications as ordered by his
          physician to treat his heart failure and lung problems, despite continued complaints to
          the nursing home staff from his wife.

       Each of the examples above concerned the technical quality of care. But we also found
       complaints that alleged problems with the quality of services, such as facility
       maintenance, communication, and staff attitudes. One PRO official characterized these
       service concerns in terms of beneficiaries’ perception of and overall satisfaction with their
       health care experience. For example, a beneficiary’s daughter complained that her mother
       was confused about caring for her eye after cataract surgery because her physician failed
       to clearly communicate follow-up instructions. Another beneficiary complained that staff
       in his skilled nursing facility placed him in a wheelchair that was insufficiently cleaned of
       urine. Service quality concerns that are ongoing, particularly in long-term care, can affect
       residents’ and patients’ quality of life.

       See appendix A for more details on the complaints we reviewed.

Limits to Other Complaint Processes

       Several entities other than PROs address quality-of-care complaints from Medicare
       beneficiaries as well as from the general population. But each entity has some limits.
       Hospitals and most other health facilities have their own internal complaint mechanisms,
       but are limited to those specific facilities. State survey agencies that certify facilities for
       Medicare consider complaints a priority, but focus on those that relate specifically to the
       Medicare conditions of participation and can only address provider concerns. The Joint
       Commission on Accreditation of Healthcare Organizations, which accredits most hospitals
       that participate in Medicare, gives complaints limited attention during its surveys and
       rarely schedules special surveys in response to complaints.13 Ombudsmen programs serve
       as advocates for residents in long-term care facilities and often investigate complaints, but
       generally lack clinical expertise to review medical records. Professional licensing boards,
       such as those that license physicians, routinely respond to complaints, but have
       historically struggled with quality-of-care complaints.14

       Medicare beneficiaries can also choose to pursue complaints through the courts.
       Malpractice court cases can address quality concerns, but memory lapses, pretrial delays,
       and limited finances tend to work against the elderly and ill in malpractice litigation,
       which is often lengthy and expensive. Moreover, malpractice attorneys working on a
       contingency fee basis have less incentive to accept retired or elderly clients such as
       Medicare beneficiaries who may receive minimal monetary awards from lost work
       earnings.15




  The Medicare Complaint Process: A Rusty Safety Valve   5                               OEI-01-00-00060
                                            FINDINGS

The PROs’ complaint process is an ineffective safety valve for
Medicare beneficiaries. It has improved little over the past 5
years.
       We developed a template for an effective complaint process based on prior inspection
       work on dialysis facility oversight.16 In testimony before Congress on dialysis facilities,
       CMS endorsed the elements as essential to an effective complaint system.17 We think it is
       just as relevant to the complaint process of Medicare PROs. The table below profiles the
       elements in our template and how well PROs fared in each element.

     Element                    Characteristics of an                   Characteristics of the
                                Effective Complaint                    PRO Complaint Process
                                      Process
1. Accessibility           Complainants are aware of the system   Hotline calls are inconsistently answered.
                           and find it easy to use.               Success of PRO outreach is unknown.

2. Investigative           Appropriate experts, resources, and    PROs rely on medical record review, which is
   capacity                methods are available to assess        their strength, but they are unlikely to identify
                           complaints and determine if they are   patterns. Medical record review is limited to
                           part of an underlying pattern.         addressing technical quality concerns.

3. Interventions and       Substantiated complaints result in     Most common interventions are letters.
   follow-through          appropriate corrective action.         Corrective actions are rare. Few referrals to
                           Monitoring assures compliance.         other entities. Little follow-up.

4. Quality                 Complaints guide quality               Quality improvement projects rarely stem
   improvement             improvement efforts.                   from complaints: only one PRO implemented
   orientation                                                    a project based on complaints.

5. Responsiveness          Responses to complainants are          Current procedures continue to preclude
                           regular, substantive, and clear.       PROs from responding substantively;
                                                                  physicians often fail to consent to disclosure.
                                                                  PROs vary in their responses; they report that
                                                                  beneficiaries are frustrated.

6. Timeliness              Each step is completed within an       Most complaints exceed the established
                           established, reasonable time frame,    timeframes for reviewing complaints.
                           and mechanisms exist to deal with
                           emergent complaints in an expedited
                           manner.

7. Objectivity             The review process is unbiased,        Information gathered suggests that the
                           balancing the rights of each party.    process is fair.

8. Public                  Complaint information is made          Little complaint information is publicly
   accountability          available to the public.               available.




  The Medicare Complaint Process: A Rusty Safety Valve        6                                       OEI-01-00-00060
      Five years ago we examined the PROs’ beneficiary complaint process and found it to be
      seriously flawed. This time, we examined it more closely, gauging it by each element in
      our template. What we found was a complaint system that falls short in each element, with
      the exception of objectivity. Beneficiaries looking for an easy-to-use complaint system
      that will hold physicians and facilities accountable for quality-of-care problems and
      respond to beneficiaries in a meaningful way will be left frustrated and disappointed by the
      PROs’ beneficiary complaint process. Below we offer, in more detail, our assessments of
      the major elements in our template.


Accessibility

        An effective complaint process is widely known and easy to use.



      Accessibility is questionable. Our experience calling a sample of PROs raised
      concerns about how easily beneficiaries can access information through the toll-free
      numbers that PROs maintain. Though PROs train staff to assist beneficiaries in submitting
      complaints, we had trouble reaching such trained staff (see box).

      In addition to calling 10 PROs, we                                  Calls to 10 PROs
      called 1-800-MEDICARE, the phone
      number for a Medicare information                  We called PROs in 10 States containing 54 percent
                                                         of the Medicare population and asked operators to
      hotline, which is commonly included                explain how a beneficiary with a quality-of-care
      on Medicare publications. The first                complaint can use the PRO complaint process.
      day we reached a busy signal.
      Calling again the next day, we                     2 Calls	 Reached Busy Signals. Repeated attempts
      reached a recording that presented no                        over several hours resulted in busy signals.
                                                         2 Calls 	 Reached Recordings. One requested an
      menu option for PROs or for quality-                         access code, without explanation. One
      of-care concerns. Although CMS has                           recorded phone numbers for return calls.
      not measured the accuracy of PRO                   6 Calls	 Reached Operators. One provided us with
      information provided by telephone, it                        contact information for the State medical
      reported that in 1999 only two of                            board, and explained that the board is the
                                                                   appropriate place for Medicare
      three Medicare beneficiaries received
                                                                   beneficiaries to bring quality-of-care
      responsive answers from Medicare                             complaints. One transferred us to a voice
      sources, meaning one of every three                          mail system without providing any
      received either no answer or an                              information. Four provided accurate
      incorrect answer.18                                          information.


      According to our PRO survey, even
      beneficiaries who are aware of the PROs often lack a clear understanding of the complaint
      process. Many PROs identified inadequate beneficiary understanding of the complaint
      process as a barrier to achieving effectiveness. 19

      All PROs conduct outreach to improve beneficiary awareness and understanding of the
      complaint process. The most common outreach activities are presentations at venues such


  The Medicare Complaint Process: A Rusty Safety Valve   7                                              OEI-01-00-00060
      as area agencies on aging and senior centers. Many PROs also coordinate outreach with
      State Health Insurance Partnership programs, Departments of Public Health, and the Social
      Security Administration, among others. However, PROs are not required to coordinate
      their outreach efforts with other relevant State entities. PRO contracts merely require them
      to take note of and avoid duplicating the outreach efforts of others.20

      The effectiveness of these outreach efforts, however, is unknown. For example, States
      conducting the highest rates of outreach do not necessarily have the highest rates of
      complaints, as measured by how many medical records they review.21 Outreach budgets
      are limited; under the fifth contract, average outreach spending constituted about 6 to 7
      percent of the total PRO budget.22 Despite CMS’ target to improve beneficiary education
      in its FY 2000 Performance Plan, the level of outreach funding did not change significantly
      under the sixth contract.23


Investigative Capacity

         An effective complaint process has the appropriate experts, resources, and methods
         available to assess complaints.



      Strength in medical record review. PROs review medical records to investigate
      complaints. They have not only the expertise necessary for reviewing medical records, but
      also the authority to request the medical records, plus the access to the medical specialists
      needed for such reviews. PROs have a depth of experience in reviewing medical records
      that CMS, State survey agencies, and others are hard-pressed to match.

      PROs request only those medical records related to the complaints they receive. This often
      means they review multiple records. In our review of 82 complaints, 20 complaints
      involved 2 care settings and 5 involved 3 care settings—which meant these PROs reviewed
      at least 55 records for those 25 complaints.

      Unlikely to review a sample of records. PROs tend to treat complaints as individual
      incidents, rather than as potential signs of systemic problems. When a PRO confirms a
      quality-of-care concern in a particular record, it is unlikely to pull extra records to
      determine whether an underlying pattern exists. PROs do have the authority to review
      extra records under such circumstances, but are unlikely to know whether the medical
      licensing board, State survey agency, or other overseer is investigating the same physicians
      or facilities. Without such knowledge or additional reviews, the likelihood of documenting
      a pattern based only on PRO data is low. One PRO medical director noted that identifying
      a pattern relies on “corporate memory.” According to the responses to our survey, just 9 of
      50 PROs identified a pattern of concerns based on reviewing complaints under their fifth
      contract, a period exceeding 3 years.

      Limits of medical record review. While medical record review is well-suited to
      investigating complaints about technical quality of care, PROs also receive complaints


  The Medicare Complaint Process: A Rusty Safety Valve   8                             OEI-01-00-00060
      concerning service quality. Medical records shed little light on those concerns. We asked
      officials at 24 PROs how they handled service quality, such as complaints about
      communication or facility maintenance. Twenty-two indicated they referred those
      complaints to others.24 They simply consider service-related complaints non-PRO issues.
      Among the 20 service-related concerns we identified during our on-site review of
      complaints, we saw documentation that PROs referred 2 to another entity. According to
      our site visits, PROs rarely hear back any results of investigations on referred complaints.

      Finally, PROs do little beyond the medical record review to investigate complaints, and are
      not expected to do more. They do not routinely conduct interviews with the parties
      involved, although in many cases, some semblance of a beneficiary interview occurs if a
      beneficiary complains to the PRO hotline staff, who then translate the complaint into
      writing.25


Interventions and Follow-Through

          An effective complaint process triggers appropriate interventions and monitoring
          based on substantiated complaints.



      Most common interventions are letters. PROs rarely take any action beyond a
      notification letter to providers and practitioners in response to confirmed quality concerns
      based on complaints. PROs consider these letters to be educational interventions because
      they include references to how the care should have been handled by the physician or
      facility. PROs generally prefer these educational approaches, finding them more in line
      with the quality improvement orientation that is a centerpiece of their contracts. We
      reviewed 66 complaints with confirmed concerns. A PRO confirms a concern only after
      multiple layers of review, including an opportunity for the physician and provider in
      question to comment or provide additional information. In each of those 66 cases the PRO
      responded with such a letter.26

      Occasionally, PRO interventions exceeded the notification letter. In 6 of the 66 complaints
      with confirmed concerns, the PROs, based on the severity of the review findings, also
      called for a corrective action plan. In five of those six, the PRO found the facility
      responsible for the quality-of-care concern; in one case, the physician. PROs called for
      corrective action aimed at preventing further problems, including updating or clarifying
      policies or conducting in-service training. We saw no examples of a PRO calling for
      remedial training, coursework, or special supervision. Furthermore, we saw little evidence
      of particular follow-through by the PRO to ensure that the facilities had, in fact, changed
      their policies. We found no example of a PRO pulling extra records for review to
      determine if the problem persisted, for example. In each case, the PROs’ letters indicated
      that the problem would be entered into a database and tracked to determine whether a
      pattern developed—but one medical director told us that little tracking actually occurred. 27




  The Medicare Complaint Process: A Rusty Safety Valve   9                             OEI-01-00-00060
    Referrals to licensing boards rare. More serious interventions, such as referring a
    physician to the State medical board based on the findings of a medical record review, were
    even rarer.28 We surveyed the PROs about such referrals based on beneficiary complaints.
    Just 9 of the 50 PROs that responded to our survey reported making such a referral at least
    once during their fifth contract—a period that exceeded 3 years. Likewise, PRO referrals
    to State survey and certification agencies are uncommon: six PROs reported making such
    referrals for confirmed concerns during their fifth contracts. 29

    Patterns difficult to establish. PROs cite the need for establishing a pattern of
    concerns through medical record review before applying an intervention beyond the
    traditional notification letter.30 Determining whether a concern is part of a larger pattern is
    crucial for the PROs to determine an appropriate intervention. However, establishing a
    pattern is increasingly difficult because they lack the volume of case review to identify a
    pattern. They do, however, have the authority to investigate whether a larger pattern exists
    by requesting additional cases to review.31 But they rarely invoke it. In responding to our
    survey, 9 out of 50 PROs reported identifying a pattern of quality concerns based on
    complaints during the whole fifth contract period.

    Occasional voluntary corrective actions. Sometimes facilities took initiatives to
    implement corrective actions before the PROs even confirmed that a quality-of-care
    concern existed. In those cases, the facilities took action based on the PROs’ letter
    indicating that a potential quality-of-care concern existed. In those cases, the facilities
    were generally familiar with the PRO review process. In our review, we found six
    examples of such voluntary corrective actions. Four involved hospitals; one, an
    ambulatory surgical center, and; one, a skilled nursing facility. In each case, the voluntary
    actions involved improved or changed policies or in-service training.

    Mediation represents a questionable alternative intervention. Five PROs
    piloted mediation as an alternative for resolving beneficiary complaints.32 In theory,
    mediation holds promise. It attempts to resolve disputes for beneficiaries by bringing
    together the beneficiary and provider or practitioner with a skilled mediator to foster
    agreement. However, the pilot—which was very limited in scope—raises significant
    questions about its applicability to beneficiary complaints. It was labor-intensive,
    involving considerable outreach and education to all parties. In the end, 28 of 58
    beneficiaries accepted the PROs’ offer of mediation, and of these, only 11 providers agreed
    to mediate as well. Bringing together a beneficiary and provider or practitioner can present
    a burden to both parties, particularly a frail beneficiary. Furthermore, there is likely to be a
    perceived imbalance of power between the participants. The pilot’s experience in reaching
    resolutions between the parties was poor: just 3 of the 11 mediation cases ended up
    resolving their concerns to the beneficiaries’ satisfaction.

    The evaluation of the mediation pilot recommended that mediation be tested on a larger
    scale before implementation.33 Among the unanswered questions left by the pilot are:
    What types of complaints are appropriate/inappropriate for mediation? Should the severity
    of harm be considered? What role would medical record review have in mediation? To
    what extent is mediation a burden to complainants who may be elderly or frail? How does
    mediation serve as a beneficiary protection if there is no intervention or follow-up? Do the


The Medicare Complaint Process: A Rusty Safety Valve   10                              OEI-01-00-00060
      benefits of mediation justify the resources spent on training PRO staff and educating
      providers and beneficiaries?


Quality Improvement Orientation


        An effective complaint process guides quality improvement.



      Quality improvement projects rarely stem from complaints. Complaints have
      been a poor source of information on which to base quality improvement projects, which
      are the focus of the PROs’ contracts with CMS.34 The difficulties in identifying a pattern
      of complaints coupled with the PROs’ current contracts, which stress national quality
      improvement projects as opposed to local projects, make complaints an unlikely source for
      such projects. Even under their last contract, under which local projects played a larger
      role, just 1 of 50 PROs reported implementing a quality improvement project based on
      beneficiary complaints.35


Responsiveness

        An effective complaint process provides regular, clear, and substantive responses to
        complainants.



      Limited responses. We found that beneficiaries generally received correspondence
      from the PRO twice: once at the beginning of the complaint process when the PRO
      acknowledges the complaint and explains the process, and again at the close of the review
      when the PRO sends a final letter(s). In our review of 82 complaints at 3 PROs, we found
      minimal documentation of ongoing written communication between PROs and
      beneficiaries during the review process, even though the PRO manual instructs PROs to
      “recontact the complainant whenever you experience any delays with your review and
      provide the reason for the delay.”36 We did, in fact, find delays in the review process to be
      common. In some cases, however, we did see evidence of beneficiaries calling and
      discussing their complaints with the PROs during the review process.

      Consent for disclosure remains problematic. Current procedures require PROs to
      obtain consent from the physicians who provide the care in question before the PROs can
      share their review results with beneficiaries (however, on July 9, 2001, a Federal district
      court judge found that these procedures are contrary to Federal law). 37 Without that
      consent, PROs can respond to beneficiaries’ complaints only in the most general way. But
      PROs have a difficult time obtaining physician consent, particularly when the medical
      record review identifies quality-of-care issues. PROs obtain consent in just 21 percent of
      complaints where a quality-of-care concern is confirmed. They obtain consent twice as
      often—42 percent—when no concern is confirmed.38 Because complaints often involve


  The Medicare Complaint Process: A Rusty Safety Valve   11                            OEI-01-00-00060
    multiple care settings and physicians, obtaining consent can be complex if only some
    physicians consent. As a result of this consent requirement for complaints with several
    concerns, we also found that beneficiaries commonly receive multiple final response letters
    from the PRO, each letter dealing with a single aspect of the complaint. In one case, a
    beneficiary received eight final response letters from the PRO, all on the same day.

    Vague language. Our previous study defined a substantive response as including three
    components: (1) what the PRO did to investigate the complaint, (2) what the review
    revealed, including whether a quality-of-care problem was confirmed and, if so, the nature
    of the problem, and (3) if a quality-of-care problem was confirmed, what action the PRO
    took based on it.39 Overall, not all
    PROs are meeting all three
                                                       Actual Language from Final
    components. We reviewed over                    PRO Response to a Complainant
    100 final letters to beneficiaries
    from the PROs responding to our          “THE FOLLOWING STATEMENT IS REQUIRED
    survey and found PROs vary               TO PROTECT CONFIDENTIALITY. . .
    widely in the type and quality of        UNAUTHORIZED DISCLOSURE OF PRO
                                             CONFIDENTIAL INFORMATION MAY RESULT
    information they provide                 IN A $1000 FINE AND/OR 6 MONTHS
    beneficiaries. We often found the        IMPRISONMENT IN A FEDERAL
    letters to lack plain language and       PENITENTIARY.”
    even include intimidating
    references to statutes and
    regulations (see box).

    All letters did explain that PROs investigate complaints through medical record
    review—information also spelled out in PROs’ initial letters acknowledging the receipt of
    the complaint. However, 24 percent of the final letters excluded a summary of the original
    complaint. We also found the responses to fall short of describing what the review
    revealed. Even when PROs received consent, some used language so vague that we had
    difficulty determining the nature of the problem.40 Likewise, the PROs used vague
    language in describing their follow-up of confirmed problems, offering explanations such
    as “appropriate action has been or is in the process of being taken to prevent problems of
    this type from occurring in the future.”41

    CMS does provide PROs with a manual to guide and standardize how they operate,
    including sample letters to complainants. Despite specific instructions for PROs not to use
    the samples as form letters, many PROs do just that, without providing any case specific
    details. Through our survey and site visits, many PRO officials reported finding the
    manual to be both confusing and of limited usefulness.42

    Beneficiaries frustrated. PROs reported, both through our survey and site visits, that
    beneficiaries are often unsatisfied after the PRO completes its review and want closure
    after months of waiting. They want to know what specific actions the PRO took in
    response to their particular complaints.




The Medicare Complaint Process: A Rusty Safety Valve   12                          OEI-01-00-00060
Timeliness

        Each step in an effective complaint process is completed within an established,
        reasonable time frame, and mechanisms exist to deal with emergent complaints in
        an expedited manner.



      Established time frames difficult to achieve. PROs continue to face difficulties in
      meeting CMS’ prescribed time frames for completing their reviews of beneficiary
      complaints. Since our 1995 inquiry, CMS shortened the target time frames considerably,
      from 220 to 150 days.43 Despite the reduced time frames from CMS, 43 of 55 complaints
      we reviewed that had complete date information exceeded the allowed time frames for
      review.44

      PRO officials identified a few major obstacles that prevent a more timely process.
      Collecting medical records from multiple care settings can cause delays, particularly when
      one of the settings is unaccustomed to working with the PRO. Unlike hospitals, settings
      such as physician offices and home health agencies have had less interaction with PROs,
      which means PROs may need to educate them to get records. Some PRO officials noted
      that their lack of authority to deny payments in certain settings can affect how responsive
      those places are in sending medical records.

      In recent pilots, a few PROs experimented with revised approaches to the complaint
      process, such as using a case manager to manage communications with the provider or
      beneficiary. The pilot evaluation found this approach to be more timely.


Public Accountability

        An effective complaint process makes complaint information available to the public.



      Little information available. Neither CMS nor the PROs make much complaint
      information available to Medicare beneficiaries and other interested parties, such as
      advocates. CMS does not release any aggregate national data on complaints. In fact,
      CMS’ own data system does not directly count actual complaints, though that number can
      be deduced through programming.45 The data system does count how many medical
      records were reviewed by PROs due to a complaint. Because one complaint can trigger
      multiple reviews, that number is a poor proxy for how many complaints PROs actually
      receive over a given period.

      Thirty-six out of 51 PROs reported that they release some complaint information, usually
      through their annual reports. The most commonly released piece of information was
      simply the number of complaints received. Fourteen of these PROs reported that they



  The Medicare Complaint Process: A Rusty Safety Valve   13                           OEI-01-00-00060
      released information on the types of complaints they received and 15 on the outcome of
      review.


PROs face two major obstacles to achieving a more effective
beneficiary complaint process.
CMS’ contracts with PROs treat complaints as a distinctly minor activity. The
contracts stress quality improvement and payment error reduction.

      CMS’ current contract with the PROs divides their functions into six specific tasks. Half
      of those tasks relate to CMS’ Health
      Care Quality Improvement Program,
                                                Estimated PRO Budget for the 6th Contract Period,
      which has been a major focus of the                           by Contract Task
      PROs over the past 7 years. Those
      tasks include quality improvement         Task                              Budget            Percent
                                                                               (In millions)
      projects that are national, local, and
      related to Medicare+Choice plans.         1. National QI Projects             $237            36%
      The fourth task concerns CMS’ new         2. Local QI Projects                $ 81            12%
                                                3. Medicare +Choice

      Payment Error Prevention Program,         QI Projects                         $ 49             8%

      which is designed to protect the          4. Payment Error 

      integrity of the Medicare Trust           Prevention Program                  $148            23%

      Funds. Together, these tasks              5. Other Contract Activities* $122                  18%
                                                6. Special Projects                 $ 21             3%
      represent 79 percent of CMS’
      estimated budget for all tasks in the     * Mandatory case review is estimated to cost about $49
      sixth contract period (see box). The      million, which is 7 percent of the total estimated budget.
                                                Source: OIG Analysis of budget data provided by CMS for
      contract also calls for each PRO to       the 6th scope of work (excludes information services).
      have two leadership positions: a
      director for the Health Care Quality
      Improvement Program (tasks 1
      through 3) and a director for the Payment Error Prevention Program (task 4).

      Despite beneficiary protection being identified elsewhere in the contract as one of three
      major functions of the PROs, the complaint process falls under task 5 of the contract,
      labeled “Other Contract Activities.”46 Representing 18 percent of the estimated budget, the
      “Other Contract Activities” section serves as a catch-all. It covers outreach and all
      mandatory review categories, which include complaints as well as hospital-issued notices
      of noncoverage, among others. Mandatory reviews, however, represent just 7 percent of
      the total estimated budget (see box). Unlike the requirements for the Quality Improvement
      and Payment Error Prevention Programs, the contract requires no director assigned to
      beneficiary protection or mandatory case review.

      CMS’ oversight of the PROs reflects the focus of the contract, with the most attention on
      the Health Care Quality Improvement (task 1) and Payment Error Prevention (task 4)
      Programs. The contract includes some performance expectations for those tasks. CMS did
      not publish its evaluation standards for the PROs until April 26, 2001, fully 21 months into


  The Medicare Complaint Process: A Rusty Safety Valve   14                                     OEI-01-00-00060
       a contract period expected to last 36 months. Those criteria require little more than for
      CMS, through its regional project officers, to monitor electronically submitted data on the
      medical record reviews conducted by each PRO. Before those criteria were published (for
      the first 21 months of the contracts), CMS’ project officers, located in four regional offices,
      relied on checklists and site visits to monitor the PROs. We spoke with a project officer in
      each region, and while they vary in their approaches, they reported that their focus was on
      quality improvement and payment error prevention. For those that did review the
      beneficiary complaint process, their review was largely administrative and focused on
      documentation.

PROs tend to be more oriented to the medical community than to the beneficiary
community. This helps them in conducting quality improvement projects but can
hinder them in developing a more effective beneficiary complaint process.

      Investigating complaints thoroughly—seeking additional cases for review based on
      complaints and intervening with corrective actions in cases that fall short of the provider or
      practitioner “grossly and flagrantly” violating standards of care—can undermine the PROs’
      relationships with the medical community.47 The focus of the PROs’ contracts puts a
      premium on those relationships. Without cooperation and support from the physicians and
      providers, the PROs would be hard-pressed to conduct any of their quality improvement
      projects. And given how significantly such projects figure in the PROs’ contracts and
      CMS’ evaluation of the PROs, those relationships become a priority. In fact, PROs are
      inherently tied to the medical community. CMS requires PROs to have the support of
      physicians in their States, which PROs must demonstrate at the start of each new contract.
      Furthermore, while PRO boards must have one consumer representative—defined as a
      Medicare beneficiary—all the other members may be physicians and other health care
      professionals.48

      The PROs’ orientation toward the provider community is not new. In fact, PROs
      traditionally have exhibited a reluctance to take on a more enforcement-oriented role that
      might undermine their relationships with the medical community. They have rarely, for
      example, referred physicians or providers for sanction. PROs have referred just six
      providers or practitioners for sanction in the past 5 years, and none in the past 2 years. 49
      They prefer educational approaches, which are more in line with their quality improvement
      efforts, over punitive approaches. This reflects CMS’ view of the PRO program as
      operating in a “penalty-free environment.”50 The orientation toward the provider
      community was reinforced in 1993 with the onset of the Health Care Quality Improvement
      Program and the parallel decline in medical record review requirements. To date, the
      PROs’ preference for educational approaches remains strong, which leaves little room for a
      credible complaint process.




  The Medicare Complaint Process: A Rusty Safety Valve   15                             OEI-01-00-00060
                            RECOMMENDATION

      This report focuses on the PROs’ complaint process. That process is available in each
      State for Medicare beneficiaries with concerns about the quality of care they receive.
      PROs bring a great deal of expertise to the process given their extensive experience in both
      reviewing medical records and working with beneficiaries. However, we found that the
      complaint process falls short of providing an effective safety valve for beneficiaries—just
      as we did 5 years ago. It has major shortcomings: it is hard-to-use, it rarely holds
      individual providers or practitioners accountable, and its responsiveness to beneficiaries is
      limited, leaving them frustrated and unsatisfied. Fundamentally, the complaint process
      represents a minor activity in a program more concerned with overall quality improvement.
      While fostering improvement represents an important goal, providing beneficiaries with a
      meaningful complaint process also serves an important goal of protecting beneficiaries
      from harm.

      CMS must exert strong leadership to address the shortcomings we identify and provide
      beneficiaries with an effective complaint process. In our draft report, we presented a series
      of recommendations on how CMS could achieve an effective complaint process. In this
      final report, we have revised our recommendations and present CMS with two options on
      how it can achieve an effective complaint process. The recommendations from the draft
      report are fully incorporated under the first option.


CMS should provide Medicare beneficiaries with an effective
complaint process that meets the eight criteria identified in
our template.
      This is our core recommendation. Our template, which is on page 6, spells out the
      characteristics of an effective complaint process in each of the following eight elements:
      accessibility, investigative capacity, interventions and follow-through, quality
      improvement orientation, responsiveness, timeliness, objectivity, and public accountability.
      CMS has already endorsed these elements in Congressional testimony and in comments on
      a previous OIG report, calling them “essential.”51

      Below we present two options for CMS to consider in achieving an effective complaint
      process for Medicare beneficiaries. The first focuses on fixing the process within the PRO
      program; the second focuses on establishing a complaint process outside of the PRO
      program. Following the two options, we briefly identify some issues that CMS must
      address in pursuing either option.




  The Medicare Complaint Process: A Rusty Safety Valve   16                            OEI-01-00-00060
Option 1: CMS could fix the complaint process within the existing PRO
program. Toward that end, it must

      Make the complaint process more prominent in the PRO program. Increasing
      the prominence of the complaint process is the first step toward achieving an effective
      beneficiary safety valve. To make a difference, CMS must give the beneficiary complaint
      process more stature in the contract. It must remove the complaint process from the
      category of “Other” and give it its own section. Without the fundamental commitment
      from CMS for those changes, any efforts to improve the complaint process through policy,
      contractual, or regulatory changes will be marginal at best. Indeed, CMS should look
      beyond the PRO program itself for ways to enhance the stature and support of the
      complaint process. CMS could, for example, enhance the 1-800-Medicare telephone
      service by adding a menu option about how to lodge a complaint with the PROs.

      Giving the complaint process more prominence as a beneficiary protection is in line with
      CMS’ own mission, vision, goals, and objectives, as spelled out in its Strategic Plan. 52 In
      fact, CMS’ Strategic Plan includes a specific objective aimed at protecting beneficiaries
      from substandard care and identifies an effective complaint mechanism as a strategy for
      achieving that objective. Furthermore, it emphasizes “the themes of
      accountability/stewardship and a renewed focus on the ‘customer’” and “a renewed
      Agency commitment to beneficiaries as the ultimate focus of all CMS activities,
      expenditures, and policies.”53

      Specify its expectations through its contracts with the PROs. CMS should
      expect a basic level of performance from the PROs in each of the eight elements. It should
      articulate those expectations in its contracts. The contracts—as opposed to the PRO
      manual—represent CMS’ best mechanism for articulating those expectations. CMS could
      consult with the PROs and other stakeholders to develop the explicit expectations element
      by element. For example, under the accessibility element, CMS could expect that PRO
      hotlines are easier to find (e.g., by including the numbers in CMS publications and
      requiring better listings in phone books under the yellow pages or blue government pages).
      It should expect that those numbers are also answered appropriately. Under investigative
      capacity, it should clarify its expectations for referral relationships and follow-up with
      entities such as survey and certification agencies. Under responsiveness, it could expect
      the kind of substantive responses we called for in our report 5 years ago (which would also
      reflect the July 9, 2001 findings of a Federal district court judge, who ordered the
      Department to instruct PROs to disclose the results of PRO complaint investigations to
      beneficiaries).54

      Consider different contracting approaches for the complaint process. The
      shortcomings we identify in this report are serious. They undermine the ability of the
      complaint process to function as an effective safety valve. They may be so serious, in fact,
      as to warrant an overhaul of how the PRO program is structured, financed, and managed.
      It may be time to search for some creative solutions. For example, as PRO quality
      improvement projects tend toward more national—as opposed to local—approaches to
      benchmarking, so too, perhaps, could complaint determinations. Below are three
      contracting options CMS could consider.


  The Medicare Complaint Process: A Rusty Safety Valve   17                             OEI-01-00-00060
    First of all, CMS could modify the current contract with the PROs. In modifying the
    contract to give the complaint process more prominence, CMS could require each PRO to
    have a leadership position devoted to beneficiary protection, parallel to the directors called
    for in the contract to oversee the Quality Improvement and Payment Error Prevention
    programs. It should specify measurable performance expectations for the complaint
    process. Of the three options, this option would likely offer the most flexibility. But,
    because of the PROs’ existing orientation to providers, it could make achieving a more
    prominent complaint process difficult.

    Second, CMS could consider a separate contract with the PROs. Such a separate contract
    should focus on the whole complaint process, the related outreach activities such as the
    hotline, or some parts of each. Some PROs would likely develop into complaint specialists
    through this approach and compete for complaint contracts in multiple States. This
    approach has the advantage of a contract with a singular mission, but could result in some
    coordination problems within or among PROs.

    Third, CMS could consider a subcontract through the PROs. Like the second option, this
    approach gives the complaint process more prominence by allowing it to be the singular
    mission of the subcontract but shares the same potential problem with coordination. This
    approach would open the field of potential contractors to include any organizations capable
    of delivering the subcontract’s requirements for an effective complaint process. Such
    organizations would compete to win the subcontract, which PROs would manage.

    We recognize that some legislative changes may be necessary to carry out some of these
    strategies.55

    Hold the PROs more accountable for providing an effective complaint
    process. CMS should revise and expand its criteria for evaluating the beneficiary
    complaint process. The current criteria, published in the Federal Register April 26, 2001,
    make no specific mention of that process. In the meantime, though, CMS should find ways
    to hold the PROs accountable for their contractual requirements, including developing
    relevant performance measures and performance incentives. Once again, our template
    could serve as a framework for CMS in defining such measures and incentives. CMS
    could work with the PRO community to develop them.

    Furthermore, CMS should make information publicly available on the numbers, nature, and
    outcomes of complaints investigated by the PROs. It could do this through its website and
    by requiring PROs to include their State-specific information in their own websites and in
    their annual reports. CMS could work with the PRO community to determine the scope of
    such information.




The Medicare Complaint Process: A Rusty Safety Valve   18                             OEI-01-00-00060
Option 2: CMS could establish a complaint process outside of the PRO
program.

      This option represents a significant departure from how CMS has handled beneficiary
      complaints to date. It would require legislative change.

      As we have defined it, this option must include a mechanism to deal with complaints about
      facilities as well as individual practitioners. In other words, it must have the same scope as
      the existing PRO program’s complaint authority. It must also have a mechanism to educate
      beneficiaries about how to register their complaints. CMS has some choices in how to
      establish a complaint system outside of the PRO program to achieve that. For example, it
      could establish an entirely new program or contract mechanism focused on complaints and
      reaching out to beneficiaries about their rights to complain. It could create new
      mechanisms to deal separately with complaints and outreach. It could even develop
      alternative mechanisms for mediating certain types of complaints. Or it could build on
      existing entities that conduct similar work. We explore the latter in more detail below.

      State survey and certification agencies already respond to complaints about care provided
      in certain facilities. Indeed, they are often the frontline responders to adverse events and
      complaints. They have agreements with CMS to respond to complaints about certain
      facilities that participate in the Medicare program. These agencies usually have State
      licensure authorities for certain provider types in addition to the authority stemming from
      their agreements with CMS. Currently, CMS’ agreements with State survey and
      certification agencies emphasize nursing homes, home health agencies, and hospitals while
      excluding certain provider types, such as managed care organizations and physician
      offices. If CMS were to look to these agencies under this option, it would have to modify
      its agreements with them to ensure that complaints about all provider types would be
      equally covered.

      Medical licensure boards also already respond to complaints from the general public.
      Unlike State survey agencies, which focus on facilities, licensure boards focus on
      individual practitioners. In general, the mission of these boards is to protect the public by
      ensuring that practitioners have the appropriate skills, knowledge, and conduct to practice
      medicine safely. Responding to complaints about practitioners is a central function of
      these boards, which have the authority to intervene and take action against an individual’s
      license to practice medicine. CMS already requires that practitioners who participate in
      Medicare be appropriately licensed by the medical board in their States of practice.

      Under this option, PROs would no longer be handling complaints, so the job of educating
      beneficiaries must also be placed elsewhere. Educating beneficiaries about their rights to
      complain as well as how to lodge a complaint is critical to ensuring an accessible complaint
      system. Many groups exist that provide support and outreach to Medicare beneficiaries.
      The State Health Insurance Partnership Program, for example, already receives funding
      from CMS to counsel and assist Medicare beneficiaries with health insurance-related
      concerns. This grant program exists in each State.




  The Medicare Complaint Process: A Rusty Safety Valve   19                             OEI-01-00-00060
      Finally, just as we called for under the first option, CMS would have to specify its
      expectations for each of the elements in our template, hold the complaint system
      accountable for performance, and make information publicly available on the numbers,
      nature, and outcomes of complaints. How this would unfold would depend on what a
      complaint process outside of the PRO program would encompass.


Issues for CMS to Consider

      The two options above have advantages and disadvantages for CMS to weigh as it
      considers how to best achieve our core recommendation, which is an effective complaint
      process for beneficiaries. Below we highlight those issues we consider paramount.

      • To what extent would establishing a complaint process outside of the PROs isolate the
        PROs from beneficiaries, who are the centerpiece of CMS’ programs?

      • To what extent would fixing the complaint process within the PRO program exacerbate
        the tension between the quality improvement and complaint responsibilities of the PROs?

      • To what extent does each option require legislative and regulatory changes to ensure that
        the complaint process functions with the appropriate authority and scope?

      • What are the resource implications of each option?

      The entities identified in each option—PROs, State survey and certification agencies, and
      medical licensure boards—all have performance track records in how well they respond to
      complaints. None of those records is without blemish.56 We urge CMS to carefully
      consider these issues, and others it identifies, as it deliberates on how to best achieve an
      effective complaint process for beneficiaries.




  The Medicare Complaint Process: A Rusty Safety Valve   20                            OEI-01-00-00060
                        COMMENTS ON THE
                          DRAFT REPORT

      CMS did not provide detailed comments on the recommendations in our draft report. We
      look forward to receiving such comments in response to this final report. We solicited and
      did receive comments from the American Health Quality Association, Citizen Advocacy
      Center, the AARP (formerly the American Association of Retired Persons), and the
      American College of Physicians-American Society of Internal Medicine. Below, we
      summarize their comments. We urge CMS to consider the comments we received.
      Appendix B contains the full text of all the comments.

The American Health Quality Association

      The American Health Quality Association agreed that CMS and the PROs should do more
      to make the complaint process more well-known and responsive to beneficiaries. To do so,
      the Association called for a reconfiguring of the complaint process and its funding to better
      integrate the principles of quality improvement within it. The Association called for CMS
      to implement a mediation and case management within the complaint process.

Citizen Advocacy Center

      In its comments, the Citizen Advocacy Center emphasized that PROs are the appropriate
      entities to handle beneficiary complaints because of their unique expertise, access to
      records, and authority. It also emphasized beneficiaries’ rights to be heard and rights to
      redress. The Citizen Advocacy Center noted its support for the PROs’ focus on quality
      improvement and its view that a viable complaint process can be integrated into the quality
      improvement program. It identified further actions for CMS and the PROs to take to
      improve the complaint process.

AARP

      AARP endorsed our template for an effective complaint process and found our
      recommendations useful. It noted that while it supports the quality improvement focus of
      the PROs, that focus does not preclude a more effective complaint process. It emphasized
      the importance of outreach and that PROs need to enhance their reputations as aggressive
      overseers of quality that value beneficiary input. AARP further recommended that CMS
      consider contract changes that would allow complaint reviews to be conducted by other
      regional PROs, thereby protecting the local quality improvement role.

American College of Physicians-American Society of Internal Medicine

      Like the other commenters, the American College of Physicians-American Society of
      Internal Medicine agreed that an effective beneficiary complaint process is key to ensuring
      quality of care. It expressed its support for the current quality improvement focus of the
      PROs and emphasized that an improved complaint process can co-exist without


  The Medicare Complaint Process: A Rusty Safety Valve   21                            OEI-01-00-00060
    compromising quality improvement. It further recommended that the complaint process be
    improved through making it more accessible and easier to use, including an informal
    complaint resolution process, and specifying more precisely what information a PRO can
    release that balances beneficiaries’ need for responsiveness as well as the trust of the
    medical community.




The Medicare Complaint Process: A Rusty Safety Valve   22                       OEI-01-00-00060
                                                                        APPENDIX              A


                               Profile of Complaints Reviewed

    Below we highlight information abstracted from the complaint files we reviewed at three
    PROs. We looked at 82 complaints in all, 16 of which had no confirmed quality-of-care
    concerns and 66 of which had at least 1 confirmed quality-of-care concern. Overall, we
    found complaints to be complex, ranging in types of concerns and care settings.

    Sources of Complaints. PROs receive complaints from a variety of sources.
    Complainants either mail their written complaint directly to the PROs or allow PRO hotline
    staff to transcribe their complaint over the phone. While most complainants are Medicare
    beneficiaries or their representatives, some complaints are submitted anonymously. Of the
    82 complaints we reviewed, 13 were referrals from other entities. Most of these referred
    complaints came from CMS and Medicare fiscal intermediaries.

    Complaint Types. Complaints can raise a variety of allegations. Of the 82 complaints we
    reviewed, we identified 297 separate concerns that complainants wanted the PROs to
    investigate. On average, each complaint raised 3.6 concerns; one complaint had as many
    as 9 concerns.

    We organized these concerns into four main categories:

          1. Technical quality concerns, which question clinical expertise and decisions, such as
          the appropriate use of medications;

          2. Service quality concerns, which question facility maintenance and solicitude with
          patients, such as facility temperature and the friendliness of staff;

          3. Administrative concerns, which question general medical office management, such
          as errors in billing;

          4. Other concerns, which question issues beyond those of technical quality, service
          quality, and administrative concerns, such as instances of abuse and neglect.

     The table on the next page summarizes the number and percentage of each of those
     complaint types in the cases we reviewed. Overall, more complaints involved technical
     quality concerns than other types.




The Medicare Complaint Process: A Rusty Safety Valve   23                            OEI-01-00-00060
                                                                                   APPENDIX      A



         Type of Concern                  Total Number of          Percent of Total
                                             Concerns             Number of Concerns
       Technical Quality                           219                        74%
       Service Quality                                 43                     14%
       Administrative                                  11                     4%
       Other                                           23                     8%
       Unknown                                         1                      < 1%


                            Total                  297                        100%
     Note: N=82 complaints

     Source: OIG analysis of beneficiary complaints from three PROs, 2000.


     One complaint can have a mix of these types of concerns, for example:

     C	 A beneficiary raised a technical quality concern that during his bladder surgery in an
        ambulatory surgical center he suffered complications that were improperly treated.
        The surgical center transferred him by wheelchair to a hospital six blocks away. He
        called this transfer method “a traumatic ordeal” as he was wheeled down the street
        dressed in a hospital gown with his family following him. This transfer method
        involved a service concern.

     C	 The wife of a Medicare beneficiary raised a quality concern that her husband’s
        rehabilitation center discharged him to a skilled nursing facility still ill with an
        infection. She then questioned the service of the nursing staff who did not give her
        regular updates about her husband’s health, especially about his decrease in appetite.

     C	 A Medicare+Choice beneficiary complained that he had used all of his lifetime
        inpatient mental health benefits because physicians in a hospital’s alcohol and drug
        detoxification unit, psychiatric unit, and emergency room improperly admitted and
        treated him. This complaint raised not only administrative concerns that he was
        incorrectly billed for the care he received, but also technical quality concerns that he
        received unnecessary and harmful care.

     Care Setting. Complaints can also raise concerns about care given in multiple health
     care settings, such as hospitals, skilled nursing homes, emergency rooms, and physician
     offices, among others. From the 82 complaints we reviewed, 25 complaints concerned
     care given in 2 or more care settings. Five of these 25 complaints involved 3 care settings.




The Medicare Complaint Process: A Rusty Safety Valve        24                          OEI-01-00-00060
                                                                              APPENDIX      A


     The table below summarizes the number of complaints that involved each care setting.
     Some complaints involved more than one care setting. Most complaints involved
     hospitals, but skilled nursing facilities and emergency rooms made up a significant
     number as well.



                   Care Setting                        Number
       Acute Care Hospital                               44
       Skilled Nursing Facility                          22
       Emergency Room                                    20
       Physician Office                                  16
       Home Health Agency                                   2
       Rehabilitation Center                                2
       Ambulatory Surgical Center                           1
       Psychiatric Unit in Acute Care                       1
       Hospital
       Free-Standing Psychiatric                            1
       Hospital
       Physical Therapy                                     1
       Radiological Center                                  1
       Hospice                                              1
       Outpatient Care Facility                             1
     Note: N=82 complaints

     Source: OIG analysis of beneficiary complaints from three PROs, 2000.





The Medicare Complaint Process: A Rusty Safety Valve   25                          OEI-01-00-00060
                                                                        APPENDIX             B

                        Detailed Comments on the Draft Report

     In this appendix we present the full text of the comments we received in response to our
     draft report. They include:

     C	 Centers for Medicare and Medicaid Services (formerly the Health Care Financing
        Administration)

     C    American Health Quality Association

     C    Citizen Advocacy Center

     C    AARP (formerly the American Association of Retired Persons)

     C    American College of Physicians-American Society of Internal Medicine




The Medicare Complaint Process: A Rusty Safety Valve   26                          OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   27        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   28        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   29        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   30        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   31        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   32        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   33        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   34        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   35        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   36        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   37        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   38        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   39        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   40        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   41        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   42        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   43        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   44        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   45        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   46        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   47        OEI-01-00-00060
                                                            APPENDIX       B




The Medicare Complaint Process: A Rusty Safety Valve   48        OEI-01-00-00060
                                                                          APPENDIX C


                                                     Endnotes


1. Omnibus Budget Reconciliation Act of 1986, Pub. L. No. 99-509.

2. 42 U.S.C. sec 1320c-3 (a) (14).

3. U.S. Department of Health and Human Services, Office of Inspector General, The Beneficiary
Complaint Process of Medicare Peer Review Organizations, OEI-01-93-00250, November 1995.

4. Health Care Financing Administration, Peer Review Organization Manual, 5020: 5-11
through 5-12 and Exhibit 5-17 through Exhibit 5-18.

5. The California PRO, California Medical Review Incorporated (CMRI), in collaboration with
the University of California at San Francisco, RAND Corporation, and Center for Social
Redesign, The Medicare Beneficiary Complaint Alternative Methods Study, 500-96-P535,
Modification P00014, October 1999.

6. 66 Fed. Reg. 93, 25389, May 14, 2001.

7. The PROs’ fifth contract period began April 1996. The sixth contract period began in August
1999 and is expected to last for 3 years.

8. We excluded the PROs for Puerto Rico, American Samoa, Guam, and the Virgin Islands from
this survey.

9. We asked for final response letters where: (1) no quality-of-care concern was identified, (2) a
quality-of-care concern was confirmed, and the practitioner consented to disclosure, and (3) a
quality-of-care concern was confirmed, and the practitioner declined to disclosure.

10. Health Care Financing Administration, The Successful PRO in 5 Years, Baltimore, MD,
November 8, 1994.

11. Sixth Scope of Work, R.F.P. No. CMS-99-001/ELH, March 1, 1999, p. 13.

12. The Beneficiary Complaint Process of the Medicare Peer Review Organizations, 3.

13. U.S. Department of Health and Human Services, Office of Inspector General, The External
Review of Hospital Quality: A Call for Greater Accountability, OEI-01-97-00050, July 1999.

14. For further discussion see: Mark R. Yessian, “State Medical Boards and Quality Assurance,”
Federation Bulletin: The Journal of Medical Licensure and Discipline 79 (1992) 5: 126-135;
“How Can State Medical Boards Compete in the Quality Assurance Marketplace?,” Federation
Bulletin: The Journal of Medical Licensure and Discipline (1994) 2: 102-108;, “From Self-
Regulation to Public Protection: Medical Licensure Authorities in an Age of Rising
Consumerism, Federation Bulletin: The Journal of Medical Licensure and Discipline 81 (1994)
3: 190-194.

  The Medicare Complaint Process: A Rusty Safety Valve   49                           OEI-01-00-00060
                                                                         APPENDIX C

See also: Timothy S. Jost, “Oversight of the Competence of Healthcare Professionals,: in
Regulation of the Healthcare Professions, Timothy S. Jost, ed. (Chicago, IL: Health
Administration Press, 1997); L. J. Finnocchio et al., Strengthening Consumer Protection:
Priorities for Health Care Workforce Regulation (San Francisco, CA: Pew Health Professions
Commission, 1998); and Carl F. Ameringer, State Medical Boards and the Politics of Public
Protection (Baltimore, MD: The Johns Hopkins University Press, 1999).

15. James T. O’Reilly, “Elders, Surgeons, Regulators, Jurors: Are Medical Experimentations’
Mistakes Too Easily Buried?” Loyola University Chicago Law Journal 31 (Spring 2000) 3: 355.

16. U.S. Department of Health and Human Services, Office of Inspector General, The External
Review of Dialysis Facilities: A Call for Greater Accountability, OEI-01-99-00050, June 2000.

17. Medicare End Stage Renal Disease Program before the Senate Special Committee on Aging,
106 Cong., 1st Sess. (June 26, 2000) (statement of Jeffrey Kang, Director, OCSQ).

18. In 1999, 67 percent of beneficiaries who sought Medicare information from Medicare
sources reported that the information they received answered their questions. See Health Care
Financing Administration, FY 2000 Annual Performance Plan, Baltimore, MD, January 2000:
150.

19. In 1995, we found that 77 percent of Medicare beneficiaries were unaware of the PROs.
Our current study revealed no evidence of increased awareness, a conclusion also reached by
stakeholders with whom we spoke.

20. Sixth Scope of Work, R.F.P. No. HCFA-99-001/ELH, March 1, 1999: 13.

21. CMS’ method of tracking data from the PROs, the Standard Data Processing System (SDPS)
indirectly counts the number of complaints each PRO receives. It counts how many medical
records the PROs reviewed in response to complaints. One complaint can involve multiple
settings of care, thus multiple records. Based on SDPS data reported by the PROs for the period
between August 1997 and July 1999, we arrayed the PROs by the level of outreach activity and
numbers of records reviewed due to complaints. Just 3 PROs appeared in the top 10 on both
lists.

22. PROs averaged less than 2 outreach activities per 10,000 beneficiaries between August 1997
and July 1999.

23. CMS lists “Increasing the Effectiveness of Dissemination of Medicare Information to
Beneficiaries” as a target in its FY 2000 Annual Performance Plan. See Health Care Financing
Administration, FY 2000 Annual Performance Plan, Baltimore, MD, January 2000: 150.

24. The two PROs that reportedly did not refer service-related complaints handled them slightly
differently. In one case, the PRO routinely reviewed the medical record for service complaints.
As an example, the official from that PRO noted that a beneficiary might complain about her
water pitcher being out of reach, which is a service quality issue. The medical record could, in
fact, document that beneficiary’s intake and output and potential dehydration related to an out-

  The Medicare Complaint Process: A Rusty Safety Valve   50                          OEI-01-00-00060
                                                                           APPENDIX C

of-reach water pitcher. The official from the other PRO noted that she considered service
complaints as potentially the “tip of the iceberg,” and would generally at least “skim the medical
record.”

25. CMS’ recent pilot testing of alternative methods for handling beneficiary complaints
included a recommendation for structured, in-depth telephone interviews of beneficiaries. See
The Medicare Beneficiary Complaint Alternative Methods Study.

26. We found a similar pattern when we examined the PROs’ responses to quality-of-care
problems they identified through medical record review several years ago. In that study, we
found the PROs’ most common response to providers and practitioners responsible for quality
of-care problems to be letters, also considered to be educational. (Office of Inspector General,
Educating Physicians Responsible for Poor Medical Care: A Review of the Peer Review
Organizations’ Efforts, OEI-01-89-00020, February 1992.)

27. There are exceptions, of course. At one PRO, the medical director told us about a surgeon
whom the PRO had referred for sanction many years ago and who was just returning to the
Medicare program. She told us that the PRO will monitor the quality of care given by the
surgeon by pulling records for review.

28. The lack of referrals between PROs and State medical boards has been well documented.
See Office of Inspector General, Peer Review Organizations and State Medical Boards: A Vital
Link, OEI-01-91-00530, April 1993 and Citizen Advocacy Center, Information Exchange
Between Peer Review Organizations and Medical Licensing Boards: Report on 50 State Survey,
November 1992.

29. We found PRO referrals to State survey and certification agencies to be more common
earlier in the complaint process. For example, PROs will refer complaints to such agencies when
they deem the complaint to be about the quality of services rather than the quality of care. In
those cases, the PRO would generally not conduct any kind of medical record review at all.

30. This applies unless they identify a gross and flagrant problem.

31. Sixth Scope of Work, R.F.P. No. HCFA-99-001/ELH, March 1, 1999: 32.

32. The Medicare Beneficiary Complaint Alternative Methods Study.

33. The small number of mediated beneficiary complaints and the inconsistent criteria for
including beneficiaries in the mediation pilot limit the conclusions that can be drawn from the
study. The study focused on 58 complaints, of which only 11 involved a provider and
complainant who both agreed to mediate. Also, each of the five PROs used different criteria to
select complaints for mediation. Inconsistency across PROs regarding whether to limit
participation in mediation only to those cases where a medical record review had already been
completed raises the question of whether mediation is intended to supplement or replace medical
record review. Although a few complainants were satisfied with mediation, unless all complaints
also undergo a medical record review, participants in mediation cannot be assured the same


  The Medicare Complaint Process: A Rusty Safety Valve   51                           OEI-01-00-00060
                                                                          APPENDIX C

protection as those whose complaints undergo medical record review.

34. CMS estimates that 51 percent of the PROs’ budgets in the sixth contract will be devoted to
quality improvement activities through either national projects (33 percent), local projects (11
percent), and managed care projects (7 percent). See Sixth Scope of Work, R.F.P. No. HCFA-
99-001/ELH, March 1, 1999.

35. This quality improvement project concerned advanced directives.

36. Health Care Financing Administration, Peer Review Organization Manual, 5020(A)(1).

37. For current procedures, see Peer Review Organization Manual section 5035 and 42 C.F.R.
476. For the recent court decision, see Public Citizen, Inc. v. Department of Health and Human
Services, et al., Civil Action No. 00-00731, July 9, 2001.

38. Based on Office of Inspector General review of SDPS data from August 1997 through July
1999.

39. The Beneficiary Complaint Process of the Medicare Peer Review Organizations.

40. One PRO routinely provided a chronology of the care provided to the beneficiary during the
time in question. While this conveyed that the PRO had indeed reviewed the case carefully, it
also could suggest that the chronology represented the results of the medical record review.

41. This is from a sample of final response letters with confirmed problems and consent for
disclosure.

42. In fact, after receiving questions from CMS regional office staff in May, CMS completely
reversed its interpretation of the need for beneficiary consent to disclosure. Previously, if
beneficiaries declined to have their names disclosed in the review process, CMS instructed the
PROs to provide no final response whatsoever. Now, CMS allows a final response—which is
required by the complaint statute—even where the beneficiary fails to consent to disclosure. (See
Health Care Financing Administration, Disclosure of Complainant’s Name in Beneficiary
Complaint, OCSQ TOPS Control Number 2000-13, May 17, 2000.)

43. This applies for complaints with confirmed concerns and no request for re-review. Health
Care Financing Administration, Peer Review Organization Manual, exhibit 5-19.

44. The 55 complaints included 16 without confirmed concerns, 20 with confirmed concerns but
no re-review, and 19 with confirmed concerns and re-review. We used the timeframes
appropriate to each category in measuring timeliness. Ten of the 16 complaints without
confirmed concerns exceeded the 120 allowed days; 16 of the 20 confirmed concerns without re-
review exceeded the 150 allowed days, and; 17 of the 19 confirmed concerns with re-review
exceeded the 165 allowed days.

45. According to CMS, the SDPS data system can produce the number of actual complaints if
someone programs it to count those records with the same beneficiary identifier and the same

  The Medicare Complaint Process: A Rusty Safety Valve   52                          OEI-01-00-00060
                                                                            APPENDIX C

start date as single complaints.

46. Sixth Scope of Work, R.F.P. No. HCFA-99-001/ELH, March 1, 1999: 32.

47. 42 U.S.C., sec. 1320c-5 (b) (1).

48. 42 U.S.C., sec. 1320c-1 (3).

49. Since 1986, PROs have referred 286 physicians and providers to the Office of Inspector
General for sanction. PROs made no referrals for FY 1999 or FY 2000. See also Office of
Inspector General, The Sanction Referral Authority of Peer Review Organizations, OEI-01-92-
00250, April 1993.

50. Comments from the CMS Administrator in Office of Inspector General, The External
Review of Hospital Quality: A Call for Greater Accountability, OEI-01-97-00050, July 1999.

51. See The External Review of Dialysis Facilities: A Call for Greater Accountability and
Medicare End Stage Renal Disease Program before the Senate Special Committee on Aging, 106
Cong., 1st Sess. (June 26, 2000) (statement of Jeffrey Kang, Director, OCSQ).

52. Health Care Financing Administration, Strategic Plan (September 1998).

53. Strategic Plan, 7.

54. In that 1995 report, we defined a substantive response as including three elements: (1) what
the PRO did to investigate the complaint, (2) what the investigation revealed, including whether
a quality-of-care concern was confirmed, and if so, the nature of the concern, and (3) if a quality-
of-care concern was confirmed, what action the PRO took based on it. See The Beneficiary
Complaint Process of the Medicare Peer Review Organizations. For details on the Federal
district court decision, see Public Citizen, Inc. v. Department of Health and Human Services, et
al., Civil Action No. 00-00731, July 9, 2001.

55. The Social Security Act calls for the Secretary to contract with a single PRO in each State
(42 U.S.C. 1320c-2). Furthermore, it requires PROs to be the entities making final
determinations on quality (42 U.S.C. 1320c-3).

56. See the discussion on page 5 as well as The Beneficiary Complaint Process of Medicare
Peer Review Organizations, November 1995; Office of Inspector General, Department of Health
and Human Services, The External Review of Hospital Quality: A Call for Greater
Accountability and The External Review of Hospital Quality: Medicare Certification, both July
1999.




  The Medicare Complaint Process: A Rusty Safety Valve   53                             OEI-01-00-00060
